Cask: 19-2618 NONPRECEDENTIAL
Document: 1 (
DISPOSITION*0

Fagfes: 4

To be cited only in accordance with Fed. R. App. P. 32.1

flairs Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted April 30, 2020*
Decided May 15, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
DIANE S. SYKES, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-2618
ANTHONY C. MARTIN,
Plaintiff-Appellant,

v.
LARRY FOWLER, et al,
Defendants-Appellees.

Appeal from the United States
District Court for the Southern District
of Indiana, Indianapolis Division.
No. 1:18-cv-00992-JRS-DML
James R. Sweeney II,

Judge
ORDER

Anthony Martin appeals the district court's dismissal of his prisoner's-rights suit
and its imposition of a filing bar as sanctions for making a false statement on his request
to recruit counsel. We affirm the district court's imposition of these sanctions.
Martin has an extensive litigation history. Since 2000, he has filed more than 40
civil cases, 15 of them in the Southern District of Indiana in just the past three years. In
* We have agreed to decide this case without oral argument because the briefs
and record adequately present the facts and legal arguments, and oral argument would
not significantly aid the court. Fed. R. App. P. 34(a)(2)(C).
EXHIBIT

1. A

Case: 19-2618

No. 19-2618

Document: 17

Filed: 05/15/2020

Pages: 4

Page 2

some cases, Martin has been sanctioned for dishonesty. In 2009, two of his cases were
dismissed in the Northern District of Indiana as a sanction for making false statements
about his finances, resulting in a two-year filing restriction without full payment of
filing fees. See Martin v. Fort Wayne Police Dep't, No. 1:09-CV-154 (N.D. Ind. June 17,
2009); Martin v. York, No. l:09-CV-332 (N.D. Ind. Dec. 21, 2009). More recently, Judge
Sweeney, in the Southern District of Indiana, dismissed another of Martin's cases at
screening, finding his complaint factually frivolous because of false allegations that
interference from prison officials had caused him to miss important court deadlines.
See Martin v. Zatecky, No. l:18-cv-02443-JRS-MPB (S.D. Ind. Oct. 9, 2018). The judge
warned Martin that "if he makes another false statement in this Court," the court would
sanction him by directing the clerk "to refuse to file any papers ... in any civil case," in
accord with Support Systems International, Inc. v. Mack, 45 F.3d 185,186 (7th Cir. 1995).
Martin brought this case in March 2018 against officers at the Pendleton
Correctional Facility. The district court granted his request to proceed in forma pauperis
but dismissed his first few complaints at screening, with leave to amend. See 28 U.S.C.
§ 1915A(b). The court allowed Martin to proceed with his fourth amended complaint on
claims asserting First Amendment retaliation and denial of access to the courts.
Six months into discovery, Martin sought the court's assistance with recruiting
counsel. On a court-provided form asking him to list any other cases he had filed
without counsel (and whether, in any of those cases, the court had recruited counsel),
Martin replied "N/A." The bottom of the form contained a specific acknowledgment
that any false answers could subject the applicant to sanctions, including dismissal of
the case. Martin signed the form under penalty of perjury. A month and a half after
seeking counsel, Martin moved to supplement his filings, listing new grievances against
prison employees.
A week later, the court exercised its inherent authority to sanction Martin for
making a false statement to the court, finding that Martin's "N/A" response about his
litigation history was "false and intended to deceive." As sanctions, the court dismissed
Martin's case with prejudice, ordered him to pay nearly $5,000 in outstanding fees he
owed to the court, and barred him from making further civil filings until he paid his
outstanding fees. The filing bar did not cover appeals or habeas cases, and Martin was
permitted to seek modification or rescission after two years.
In imposing these sanctions, the court considered Martin's extensive litigation
history, including past sanctions, and determined that his "N/A" response was another

Case: 19-2618

No. 19-2618

Document: 17

Filed: 05/15/2020

Pages: 4

Page 3

intentionally false statement. The court interpreted "N/A" to mean "not applicable/'
and thus concluded that Martin had answered under the "pretense that he does not
have significant prior litigation experience." The court also observed that Martin had
made the same response on a pending motion for counsel in another case that he filed
the same day. See Martin v. Davis, No. l:18-cv-1794-RLY-DML (S.D. Ind. June 19, 2019).
Judges need litigants to respond to these questions truthfully, the court emphasized, so
that they can "fairly determine which of the hundreds of litigants seeking counsel each
year should receive it." The court considered lesser sanctions but concluded that they
would not suffice given Martin's "sustained pattern of dishonesty," the ineffectiveness
of past sanctions, and his in forma pauperis status.
On appeal, Martin argues that the district court misconstrued his intent when he
wrote "N/A" to describe his litigation history. He intended for the term, he says, to
mean "not available" rather than "not applicable." He asserts that "not available" was
the only response he could provide in good faith because all of his legal materials were
confiscated and he could not recall his entire litigation history from memory. Martin
further argues that the court should not have imposed sanctions without holding a
show-cause hearing, at which he could have provided this explanation.
Even if the district court erred by not allowing Martin an opportunity to present
his explanation before imposing sanctions, see Johnson v. Cherry, 422 F.3d 540, 551
(7th Cir. 2005), any error was harmless because the court reasonably construed Martin's
response as intentionally deceptive. We review the district court's finding that Martin
tried to mislead the court for clear error. Thomas v. Gen. Motors Acceptance Corp., 288 F.3d
305, 308 (7th Cir. 2002). When a party fails to disclose litigation history, a court may
permissibly find an intent to defraud the court if the omission was "both material and
intentional." Hoskins v. Dart, 633 F.3d 541, 543 (7th Cir. 2011). Such was the case here.
Even if we accept Martin's explanation of N/A, the district court reasonably could have
concluded that his response was "intended to deceive," given his extensive experience
with civil litigation, history of incurring sanctions, the court's recent experiences with
him (including its warning the year before and encountering the identical N/A response
on another request for counsel form Martin had filed in a different case on the same
day), and the implausibility of his rationale that "N/A" meant not available.
Martin also asserts that the court's unduly harsh choice of sanctions was a
miscarriage of justice and an abuse of discretion. Specifically, he challenges the filing
bar as excessive because it caused his concurrent litigation to be dismissed and

Case: 19-2618

No. 19-2618

Document: 17

Filed: 05/15/2020

Pages: 4

Page 4

effectively bars him from pursuing further litigation because he cannot afford to pay
nearly $5,000 in outstanding fees.
The district court acted within its discretion to impose both sanctions. Dismissal
with prejudice is an appropriate sanction for misleading the court in an attempt to
receive a benefit—here, the appointment of counsel. See Secrease v. W. & S. Life Ins. Co.,
800 F.3d 397, 401 (7th Cir. 2015); Hoskins, 633 F.3d at 543^4. The court also acted within
its discretion to impose a filing bar, given Martin's history with sanctions and the
court's explicit warning that further false statements would lead to a Mack bar.
See Mack, 45 F.3d at 186. The court properly considered lesser sanctions but concluded
that neither dismissal of suits nor monetary penalties had been effective in the past, and
monetary sanctions would serve no purpose given Martin's in forma pauperis status.
As for the terms of the filing bar, the court appropriately premised them on payment of
outstanding filing fees, see In re City of Chicago, 500 F.3d 582, 585 (7th Cir. 2007), and it
still allowed Martin to file notices of appeal and habeas corpus cases. The restriction
also may be lifted if Martin pays his fees, and even if he does not, he may seek
modification or rescission after two years. Moreover, that several of Martin's pending
cases were dismissed as a result of the filing bar does not make it improper. See id.
Finally, Martin argues that the district judge exhibited bias by referencing prior
cases that also had been dismissed as a sanction for false statements when dismissing
his case here. But a finding of bias cannot be supported merely by an adverse ruling,
see Thomas v. Reese, 787 F.3d 845, 849 (7th Cir. 2015), or a reference to past litigation
conduct. See In re City of Milwaukee, 788 F.3d 717, 722 (7th Cir. 2015).
AFFIRMED

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
ANTHONY C. MARTIN,
Plaintiff,
v.
LARRY FOWLER,
LISA ASH,
MICHELLE RAINS,
PENNY EDEN,
DAVIS,
LONG,
SARAH PECKHAM,
SANDFORD,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. 1:18-cv-00992-JRS-DML

Order Imposing Filing Ban and Dismissing Action
Plaintiff Anthony C. Martin has once again -attempted to defraud- the Court. For the
reasons explained below, this action is dismissed with prejudice and Mr. Martin is ordered to pay
the outstanding filing fees owed to this Court as a sanction-for his misconduct. Until he pays
those fees, the Clerk of the Court is ordered to return unfiled any papers Mr. Martin submits to
this Court, with the exception of appeal documents and habeas cases.
I.

Background
Mr. Martin is a frequent litigator in the state of Indiana. He has filed more than 50 civil

actions since 2000. He has filed 14 cases in this district in the past two years. Many of his
lawsuits have been dismissed at screening for failure to state a claim upon which relief may be
granted. See e.g., Martin v. State of Indiana, l:12-cv-146-JTM-RBC (N.D. Ind. May 30, 2012)
(dismissing case as frivolous and malicious and warning Mr. Martin that if he files another

AfPf
4 i' >

frivolous or malicious lawsuit he may then be sanctioned by being restricted from any further
civil litigation in this court.); Martin v. Fort Wayne Police Department, l:04-cv-450-TLS-RBC
(N.D- Ind. Nov. 21, 2005) (dismissing action as sanction for failure to comply with Court
orders); Martin v. Ross, l:08-cv-199-TLS-RBC (N.D. Ind. Nov. 25, 2008) (dismissing action at
screening pursuant to 28 U.S.C. § 1915e(2)(B)(ii)); Martin v. Ross, 1:08-cv-247-RL-RBC (N.D.
Ind. Oct. 31, 2008) (dismissing action at screening pursuant to 28 U.S.C. § 1915e(2)).
Mr. Martin also has a history of attempting to further his litigation through deception.
The Northern District of Indiana dismissed two cases after finding that Mr. Martin had made
false statements. In Martin v. Fort Wayne Police Department, l:09-cv-154-RL-RBC (N.D. Ind.
2009), the Court found that Mr. Martin filed an in forma pauperis petition with intentional
misrepresentations in an attempt to deceive the court. Mr. Martin’s case was dismissed with
prejudice as a sanction. In Martin v-. York, l:09-cv-332-JTM-RBC (N.D. Ind. 2009), Mr. Martin
again intentionally misrepresented his financial status in an attempt to deceive the court. In
response, the Northern District of Indiana dismissed the case with prejudice and restricted Martin
from filing any new case without prepaying the filing fee for two years.
More recently in this Court, Case No. l:18-cv-2443-JRS-MPB was dismissed at
screening after the Court held that Mr. Martin’s false statements made the complaint factually
frivolous. On October 9, 2018, this Court wrote:
Mr. Martin was previously warned by the Northern District of Indiana that
if he continues to file false statements or frivolous actions, he could be
sanctioned. In particular, the Court could direct the Clerk to refuse to file any
papers submitted by Mr. Martin in any civil case. See Support Sys. Int’l v. Mack,
45 F.3d 185, 186 (7th Cir. 1995), Mr. Martin is notified that if he makes another
false statement in this Court this sanction will be imposed.
Martin v. Zantecky, Case No. 1:18-cv-2443-JRS-MPB, dkt. 8 at p. 5 (S.D. Ind. October 9, 2018).
2

"IN

II.

False Statement
Mr. Martin’s most recent false statement was made in this action in his Motion for

Assistance with Recruiting Counsel. Dkt. 61. The motion for assistance with recruiting counsel
form used by this Court states: “List any other cases you have filed without counsel and note
whether the Court recruited counsel to assist you in any of those cases.” In response, the plaintiff
wrote “N/A.” Dkt. 61 at p. 3. Mr. Martin’s response that this question is “not applicable” to him
because there are no cases to list is false and intended to deceive.
Moreover, Anthony C. Martin has filed at least 37 civil cases in the Northern District of
Indiana. Eight of these civil cases are pending. He has filed 15 civil cases in this Court where 12
remain pending. It appears that nearly all of these cases were filed without the assistance of
counsel and should have been referenced in his motion for assistance recruiting counsel.
“Whether to recruit an attorney is a difficult decision: Almost everyone would benefit
from having a lawyer, but there are too many indigent litigants and too few lawyers willing and
able to volunteer for these cases.” Olson v. Morgan, 750 F.3d 708, 711 (7th Cir. 2014). It is for
this reason that the Court requires accurate information in motions for counsel to fairly determine
which of the hundreds of litigants seeking counsel each year should receive it. To make clear the
importance of truthfulness, the motion for assistance recruiting counsel form requires the filer to
sign the form under penalty of perjury. Mr. Martin complied with this requirement:

’ The Court notes that this cannot be understood to be a typographical error because the same
response was given by the plaintiff in his pending motion for counsel in Martin v. Davis, et al.,
Case No. l:18-cv-1794-RLY-DML, dkt 59 (S.D. Ind. June 19, 2019).
3

I, the undersigned, swear and affirm under penalty for perjury that the above and
foregoing representations are true and correct to the best of my knowledge and belief.«

b* 18(Signature - Signed Under Penalty for Pemny)

(date)

Dkt. 61 at p. 4.
This record reflects that Mr. Martin attempted to abuse the judicial process by seeking the
Court’s assistance recruiting counsel under the pretense that he does not have significant prior
litigation experience. “[T]he judicial system cannot tolerate deception from litigants.” Neal v.
LaRiva, 765 F.3d 788, 790 (7th Cir. 2014).
III.

Sanctions
“A district court has inherent power to sanction a party who ‘has willfully abused the

judicial process or otherwise conducted litigation in bad faith.’” Seer ease v. W. & S. Life Ins.
Co., 800 F.3d 397, 401 (7th Cir. 2015) (quoting Salmeron v. Enterprise Recovery Systems, Inc.,
579 F.3d 787, 793 (7th Cir. 2009)). Such sanctions can include the imposition of a filing bar to
restrict a plaintiffs ability to file new lawsuits. See Support Sys. Int’l, Inc. v. Mack, 45 F.3d 185,
186 (7th Cir. 1995) (filing bar imposed on pro se party who continued to file false evidence and
did not respond to monetary sanctions). A filing bar, however, must be tailored to the
misconduct. Henry v. United States, 360 F. App’x 654, 656 (7th Cir. 2010).
Mr. Martin has demonstrated a sustained pattern of dishonesty before the Court. He has
had cases dismissed as a result of his dishonesty and filing bans have been imposed. See Martin
v. York, l:09-cv-332-JTM-RBC (N.D. Ind. Dec. 21, 2009) (dismissing action and restricting
Martin for two years from filing any new civil case without prepaying the full filing fee as a

N f' s

sanction for making false statements). These sanctions have not had the intended effect. The
appropriate sanction under these circumstances is to order Mr. Martin to pay the filing fees he
owes to this Court in the amount of Four Thousand Nine Hundred and Fifty Dollars and
Zero Cents ($4,950). Until he pays those fees, the Clerk of this Court is ORDERED to return
unfiled any papers in civil litigation that Mr. Martin submits to this Court, with the
exception of a Notice of Appeal and habeas cases. See Thelen v. Cross, 656 Fed. Appx. 778 (7th
Cir. 2016) (imposing filing ban and citing Mack, 45 F.3d 185). After two years, Mr. Martin may
seek modification or rescission of this Order. Mack, 45 F.3d at 187 (“Perpetual orders are
generally a mistake.”).
The Court considered lesser sanctions, but they would not be effective because: 1)
previous dismissals and lesser filing restrictions imposed by the Northern District of Indiana
have not stopped Mr. Martin’s deceptive litigation practices; and 2) Mr. Martin proceeds in
forma pauperis, such that no monetary sanction would have an impact. See Rivera v. Drake, 767
F.3d 685, 687 (7th Cir. 2014). The Court also considered—and will again consider in the face of
any future willful false statements from Mr. Martin—referring such false statement(s) for
prosecution of perjury. For now, however, the sanctions imposed will protect the Court’s
resources and other parties from Mr. Martin’s abusive litigation practices and willful dishonesty.
IT IS ORDERED that:
This action is DISMISSED with prejudice as a sanction for Mr. Martin’s continued
dishonesty and abusive litigation tactics.
Mr. Martin is barred from filing any papers in this Court (with the exception of habeas
cases and a Notice of Appeal) until he pays Four Thousand Nine Hundred and Fifty Dollars

5
(j2

and Zero Cents ($4,950). After two years, Mr. Martin may seek modification or rescission of
this order.
Judgment consistent with this Order shall now issue.
IT IS SO ORDERED.

Date: 8/7/2019
JAMES R. SWEENEY II, JjJDGE
United States District Court
Southern District of Indiana
Distribution:
ANTHONY C. MARTIN
945288
PENDLETON - CF
PENDLETON CORRECTIONAL FACILITY
Inmate Mail/Parcels
4490 West Reformatory Road
PENDLETON, IN 46064
Lyubov Gore
INDIANA ATTORNEY GENERAL
lyubov.gore@atg.in.gov
Brandon Alan Skates
INDIANA ATTORNEY GENERAL
brandon.skates@atg.in.gov

6

Case: 19-2618

Document: 23

Filed: 07/29/2020

Pages: 1

Itmieir States Olnurt nf Apprais
For the Seventh Circuit
Chicago, Illinois 60604
July 29, 2020
Before
DIANE S. SYKES, Chief Judge
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-2618
ANTHONY C. MARTIN,
Plaintiff-Appellant,

v.
LARRY FOWLER, et ah,
Defendants-Appellees.

Appeal from the United States
District Court for the Southern District
of Indiana, Indianapolis Division.
No. l:18-cv-00992-JRS-DML
James R. Sweeney II,

Judge.
ORDER

On consideration of the petition for rehearing and petition for rehearing en banc,
no judge in regular active service has requested a vote on the petition for rehearing en
banc and the judges on the original panel have voted to deny rehearing. It is, therefore,
ORDERED that the petition for rehearing and petition for rehearing en banc is
DENIED.

•931WO s^jap
aqi uj 9|qe|!BAB

si Sujijj. sjm uiojj
|BUajBLU |BUOj)!PPV

